                   Department of Justice
                      United States Attorney Stephen R. Wigginton
                               Southern District of Illinois
______________________________________________________________________________
FOR IMMEDIATE RELEASE                                 CONTACT: James L. Porter
WEDNESDAY, DECEMBER 5, 2012                            PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/

                 FORMER HOSPITAL EMPLOYEE CONVICTED OF
               STEALING PATIENT IDENTITIES FOR PERSONAL GAIN

        Stephen R. Wigginton, United States Attorney for the Southern District of Illinois,
announced today that Susan L. Harris, 28, of Belleville, Illinois, was convicted of aggravated
identity theft and conspiracy to commit mail fraud following a jury trial in the United States
District Court for the Southern District of Illinois, East St. Louis Division.

         Evidence presented during the two-day jury trial showed that Harris, who was at one time
a medical assistant at a Southern Illinois hospital, conspired with co-defendant Ashley
Drummond to steal personal identifying information of patients from the hospital in order to
attempt to open credit cards in the patients’ names. Drummond transported patients at the
hospital and would steal their personal information from their charts. The pair targeted elderly
patients. Drummond, who pleaded guilty to her role in the offense on November 19, 2012,
testified that, after stealing the information, she would call Harris to discuss which accounts to
apply for with which information. Harris was later caught on camera by a retail store using one
of the credit cards obtained with the victim information. The evidence showed that the credit
card she was caught using was mailed to Harris’ home and activated with her cell phone. It was
obtained with personal information belonging to a 90-year-old woman who lived in an assisted
living center.

        “As citizens, we must be able to rely on our personal information being safe and secure.
To all those who consider stealing personal information, I have this warning – the Southern
District of Illinois has established a very tough Identity Theft Task Force. With this force and
other law enforcement partners, I will continue to vigorously investigate and prosecute identity
thieves, regardless of the financial loss,” said U.S. Attorney Wigginton.

        At sentencing, on the charge of conspiracy to commit mail fraud, Harris faces up to 20
years of imprisonment, a fine of up to $250,000, or both; a term of supervised release of up to 3
years, and a $100 special assessment. Aggravated Identity Theft is punishable by a mandatory 2
year term of imprisonment consecutive to any other sentence imposed, up to 1 year of supervised
release, and a $100 special assessment. Sentencing for Harris is set for March 25, 2013.

       This case was investigated by the Southern District of Illinois Identity Theft Task Force,
the United States Postal Inspection Service, the Internal Revenue Service Criminal Investigation
Division, the Social Security Administration Office of the Inspector General, the Maryville
Police Department and the Collinsville Police Department. The case is being prosecuted by
Special Assistant United States Attorney Katherine L. Lewis and Assistant United States
Attorney Michael J. Quinley.

        If you think that you might be a victim of identity theft, contact the Southern District of
Illinois Identity Theft Task Force at 618-410-6918.
                                                ###
